JS
|

@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 L e & a I B eich contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-891

AMERICAN AXLE & MANUFACTURING, INC.,
Petitioner,
v.
NEAPCO HOLDINGS LLC and
NEAPCO DRIVELINES LLC,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSORS
JEFFREY A. LEFSTIN AND PETER S. MENELL AS AMICI CURIAE IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4823 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of March, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
f aoe Konee. Q. Lewo Qudia-h, Chel

1. September 5, 2023
Notary Public

  

 

Affiant 40584
